                                          66648                      Federal Register / Vol. 73, No. 218 / Monday, November 10, 2008 / Notices

                                          products, the testing phase begins when                   2. The date the application was                     DEPARTMENT OF HEALTH AND
                                          the exemption to permit the clinical                    initially submitted with respect to the               HUMAN SERVICES
                                          investigations of the human drug                        human drug product under section
                                          product becomes effective and runs                      505(b) of the act: September 13, 2006.                Office of Inspector General
                                          until the approval phase begins. The                    FDA has verified the applicant’s claim
                                          approval phase starts with the initial                  that the new drug application (NDA) for               Privacy Act of 1974; New OIG Privacy
                                          submission of an application to market                  TYKERB (NDA 22–059) was initially                     Act System of Records: Consolidated
                                          the human drug product and continues                    submitted on September 13, 2006.                      Data Repository
                                          until FDA grants permission to market                     3. The date the application was                     AGENCY: Office of Inspector General
                                          the drug product. Although only a                       approved: March 13, 2007. FDA has                     (OIG), HHS.
                                          portion of a regulatory review period                   verified the applicant’s claim that NDA
                                                                                                                                                        ACTION: Notice of proposed new Privacy
                                          may count toward the actual amount of                   22–059 was approved on March 13,
                                                                                                                                                        Act System of Records.
                                          extension that the Director of Patents                  2007.
                                          and Trademarks may award (for                             This determination of the regulatory                SUMMARY: The Privacy Act of 1974 (5
                                          example, half the testing phase must be                 review period establishes the maximum                 U.S.C. 552(e)(4)) requires that all
                                          subtracted as well as any time that may                 potential length of a patent extension.               agencies publish in the Federal Register
                                          have occurred before the patent was                     However, the U.S. Patent and                          a notice of the existence and character
                                          issued), FDA’s determination of the                     Trademark Office applies several                      of their system of records. Notice is
                                          length of a regulatory review period for                statutory limitations in its calculations             hereby given that OIG is adding a new
                                          a human drug product will include all                   of the actual period for patent extension.            system of records entitled
                                          of the testing phase and approval phase                 In its application for patent extension,              ‘‘Consolidated Data Repository—HHS–
                                          as specified in 35 U.S.C. 156(g)(1)(B).                 this applicant seeks 628 days of patent               OIG’’ (09–90–1000).
                                             FDA recently approved for marketing                  term extension.                                       DATES: Effective Date: This system of
                                          the human drug product TYKERB                             Anyone with knowledge that any of
                                                                                                                                                        records will become effective without
                                          (lapatinib). TYKERB is indicated in                     the dates as published are incorrect may
                                                                                                                                                        further notice on December 22, 2008,
                                          combination with capecitabine, for the                  submit to the Division of Dockets
                                                                                                                                                        unless comments received on or before
                                          treatment of patients with advanced or                  Management (see ADDRESSES) written or
                                                                                                                                                        that date result in a contrary
                                          metastatic breast cancer whose tumors                   electronic comments and ask for a
                                                                                                                                                        determination.
                                          overexpress HER2 and who have                           redetermination by January 9, 2009.                      Comment Date: Comments on this
                                          received prior therapy including an                     Furthermore, any interested person may                new system of records will be
                                          anthracycline, a taxane, and                            petition FDA for a determination                      considered if we receive them at the
                                          trastuzumab. Subsequent to this                         regarding whether the applicant for                   addresses provided below no later than
                                          approval, the Patent and Trademark                      extension acted with due diligence                    5 p.m. Eastern Standard Time on
                                          Office received a patent term restoration               during the regulatory review period by                December 10, 2008.
                                          application for TYKERB (U.S. Patent                     May 11, 2009. To meet its burden, the
                                                                                                                                                        ADDRESSES: In commenting, please
                                          No. 6,713,485) from SmithKline                          petition must contain sufficient facts to
                                                                                                  merit an FDA investigation. (See H.                   reference file code 09–90–1000. Because
                                          Beecham Corp. (doing business as                                                                              of staff and resource limitations, we
                                          GlaxoSmithKline), and the Patent and                    Rept. 857, part 1, 98th Cong., 2d sess.,
                                                                                                  pp. 41–42, 1984.) Petitions should be in              cannot accept comments by facsimile
                                          Trademark Office requested FDA’s                                                                              (fax) transmission. However, you may
                                          assistance in determining this patent’s                 the format specified in 21 CFR 10.30.
                                                                                                    Comments and petitions should be                    submit comments using one of the
                                          eligibility for patent term restoration. In                                                                   following three ways (no duplicates,
                                          a letter dated April 28, 2008, FDA                      submitted to the Division of Dockets
                                                                                                  Management. Three copies of any                       please):
                                          advised the Patent and Trademark                                                                                 1. Electronically. You may submit
                                          Office that this human drug product had                 mailed information are to be submitted,
                                                                                                  except that individuals may submit one                electronically through the Federal
                                          undergone a regulatory review period                                                                          eRulemaking Portal at http://
                                          and that the approval of TYKERB                         copy. Comments are to be identified
                                                                                                  with the docket number found in                       www.regulations.gov. (Attachments
                                          represented the first permitted                                                                               should be in Microsoft Word, if
                                          commercial marketing or use of the                      brackets in the heading of this
                                                                                                  document. Comments and petitions may                  possible.)
                                          product. Thereafter, the Patent and                                                                              2. By regular, express, or overnight
                                          Trademark Office requested that FDA                     be seen in the Division of Dockets
                                                                                                  Management between 9 a.m. and 4 p.m.,                 mail. You may mail your printed or
                                          determine the product’s regulatory                                                                            written submissions to the following
                                          review period.                                          Monday through Friday.
                                                                                                    Please note that on January 15, 2008,               address: Office of Inspector General,
                                             FDA has determined that the                                                                                Department of Health and Human
                                                                                                  the FDA Division of Dockets
                                          applicable regulatory review period for                                                                       Services, Attention: Marco Villagrana,
                                                                                                  Management Web site transitioned to
                                          TYKERB is 2,260 days. Of this time,                                                                           Room 5541, Cohen Building, 330
                                                                                                  the Federal Dockets Management
                                          2,078 days occurred during the testing                                                                        Independence Avenue, SW.,
                                                                                                  System (FDMS). FDMS is a
                                          phase of the regulatory review period,                                                                        Washington, DC 20201. Please allow
                                                                                                  Government-wide, electronic docket
                                          while 182 days occurred during the                                                                            sufficient time for mailed comments to
                                                                                                  management system. Electronic
                                          approval phase. These periods of time                                                                         be received before the close of the
                                                                                                  comments or submissions will be
                                          were derived from the following dates:                                                                        comment period.
                                                                                                  accepted by FDA only through FDMS at
                                             1. The date an exemption under                       http://www.regulations.gov.                              3. By hand or courier. You may
                                          section 505(i) of the Federal Food, Drug,                                                                     deliver, by hand or courier, before the
                                          and Cosmetic Act (the act) (21 U.S.C.                     Dated: October 20, 2008.                            close of the comment period, your
jlentini on PROD1PC65 with NOTICES




                                          355(i)) became effective: January 5,                    Jane A. Axelrad,                                      printed or written comments to the
                                          2001. FDA has verified the applicant’s                  Associate Director for Policy, Center for Drug        Office of Inspector General, Department
                                          claim that the date the investigational                 Evaluation and Research.                              of Health and Human Services, Cohen
                                          new drug application became effective                   [FR Doc. E8–26679 Filed 11–7–08; 8:45 am]             Building, 330 Independence Avenue,
                                          was on January 5, 2001.                                 BILLING CODE 4160–01–S                                SW., Washington, DC 20201. Because


                                     VerDate Aug<31>2005   16:09 Nov 07, 2008   Jkt 217001   PO 00000   Frm 00059   Fmt 4703   Sfmt 4703   E:\FR\FM\10NON1.SGM   10NON1
                                                                     Federal Register / Vol. 73, No. 218 / Monday, November 10, 2008 / Notices                                             66649

                                          access to the interior of the Cohen                     of records will be created by including               the information is relevant and
                                          Building is not readily available to                    Medicare and Medicaid enrollment,                     necessary to the litigation.
                                          persons without Federal Government                      eligibility, and claims data records on                  6. In the event that a system of records
                                          identification, commenters are                          all beneficiaries and recipients. Data in             maintained by OIG to carry out its
                                          encouraged to schedule their delivery                   the system of records will include                    functions indicates a violation or
                                          with one of our staff members at (202)                  names; Social Security numbers (SSNs);                potential violation of law, whether civil,
                                          619–1343.                                               health insurance identification                       criminal, or regulatory in nature, and
                                             Inspection of Public Comments: All                   numbers; and claims information                       whether arising by general statute or
                                          comments received before the end of the                 relating to inpatient, outpatient,                    particular program statute, or by
                                          comment period will be posted on                        physician/supplier, skilled nursing                   regulation, rule, or order issued
                                          http://www.regulations.gov for public                   facilities, nursing home, hospice, home               pursuant thereto, the relevant records in
                                          viewing. Hard copies will also be                       health, durable medical equipment,                    the system of records may be referred,
                                          available for public inspection at the                  dental, prescription drug, and managed                as a routine use, to the appropriate
                                          Office of Inspector General, Department                 care.                                                 agency, whether Federal, State, local, or
                                          of Health and Human Services, Cohen                                                                           foreign, charged with the responsibility
                                                                                                  Agency Policies, Procedures and                       of investigating or prosecuting such
                                          Building, 330 Independence Avenue,
                                                                                                  Restrictions on the Routine Use                       violation or charged with enforcing or
                                          SW., Washington, DC 20201, Monday
                                          through Friday, from 8:30 a.m. to 4 p.m.                   The Privacy Act permits OIG to                     implementing the statute, rule,
                                          To schedule an appointment to view                      disclose information outside HHS                      regulation, or order issued pursuant
                                          public comments, phone (202) 401–                       without an individual’s consent if the                thereto.
                                          2206.                                                   information is to be used for a purpose                  7. In the event the that Department
                                                                                                  that is compatible with the purposes for              deems it desirable or necessary in
                                          FOR FURTHER INFORMATION CONTACT:
                                                                                                  which the information was collected.                  determining whether particular records
                                          Marco Villagrana, Department of Health                  Any such disclosure of data is known as               are required to be disclosed under the
                                          & Human Services, Office of Inspector                   a routine use. Accordingly, we are                    Freedom of Information Act, disclosure
                                          General, Office of External Affairs, (202)              proposing to establish the following                  may be made to the Department of
                                          401–2206; or Stephen Conway,                            routine use disclosures of records                    Justice for the purpose of obtaining its
                                          Department of Health & Human                            maintained in the system:                             advice.
                                          Services, Office of Inspector General,                     1. Disclosure may be made to Federal,                 8. A record from this system of
                                          Office of Audit Services, (617) 565–                    State, and local agencies for the purpose             records may be disclosed to a Federal
                                          2946.                                                   of better identifying the total current               agency in response to its request in
                                          SUPPLEMENTARY INFORMATION: Under                        health care usage of the Medicare and                 connection with the hiring or retention
                                          Section 2 of the Inspector General Act                  Medicaid patient population.                          of an employee, the issuance of a
                                          of 1978, as amended, OIG is required to                    2. Disclosure may be made to Federal,              security clearance, the reporting of an
                                          conduct audits and investigations                       State, and local government agencies                  investigation of an employee, the letting
                                          relating to programs and operations of                  and national health organizations to                  of a contract, or the issuance of a
                                          the Department. In performing these                     assist in the development of programs                 license, grant, or other benefit by the
                                          required functions, OIG must collect,                   that will be beneficial to claimants and              requesting agency, to the extent that the
                                          collate, and analyze claims information                 to protect their rights under law and                 record is relevant and necessary to the
                                          relating to services rendered to                        assure that they are receiving all                    requesting agency’s decision on the
                                          Medicare beneficiaries and Medicaid                     benefits to which they are entitled.                  matter.
                                          recipients. For this reason, OIG is                        3. Disclosure may be made to a                        9. The system of records may be
                                          establishing a new system of records                    Federal department or agency or to a                  disclosed to student volunteers and
                                          which combines information from                         contractor of a Federal department or                 other individuals performing functions
                                          several existing HHS systems of records                 agency in order to conduct Federal                    for the Department but technically not
                                          with information from State sources.                    audits, evaluations and inspections, or               having the status of agency employees,
                                          This combined system of records is                      investigations necessary to accomplish a              if they need access to the records to
                                          necessary for OIG to perform timely and                 statutory purpose of an agency. OIG                   perform their assigned agency functions.
                                          independent audits, evaluations and                     must be able to disclose information for                 10. A record may be disclosed to
                                          inspections, and investigations of the                  purposes needed to accomplish a                       appropriate Federal agencies and
                                          Medicare and Medicaid programs.                         statutory purpose of a Federal agency.                Department contractors that have a need
                                             In addition, in compliance with the                     4. Disclosure may be made to a                     to know the information for the purpose
                                          ‘‘Incident Reporting and Handling                       congressional office from the record of               of assisting the Department’s efforts to
                                          Requirements’’ set forth in the Office of               an individual in response to an inquiry               respond to a suspected or confirmed
                                          Management and Budget Memoranda                         from the congressional office made at                 breach of the security or confidentiality
                                          07–16, Safeguarding Against and                         the request of that individual.                       of information maintained in this
                                          Responding to the Breach of Personally                     5. In the event of litigation,                     system of records, and the information
                                          Identifiable Information, OIG is                        information from the system of records                disclosed is relevant and necessary for
                                          incorporating the routine use language                  may be disclosed to the Department of                 that assistance.
                                          into this new system of records as part                 Justice, to a judicial or administrative
                                                                                                  tribunal, opposing counsel, and                       Safeguards
                                          of our normal System of Records Notice
                                          (SORN) review development process.                      witnesses in the course of proceedings                  OIG has safeguards in place for
                                                                                                  involving HHS, any HHS employee                       authorized users and monitors users to
                                          Description of the Proposed System of                   (where the matter pertains to the                     ensure against unauthorized use. The
jlentini on PROD1PC65 with NOTICES




                                          Records                                                 employee’s official duties), or the                   system will conform to all applicable
                                            Records from the Centers for Medicare                 United States, or any agency thereof                  Federal laws and regulations and
                                          & Medicaid Services and State Medicaid                  where the litigation is likely to affect              Federal, HHS, and OIG policies and
                                          agencies will be incorporated into this                 HHS, or HHS is a party or has an                      standards as they relate to information
                                          new system of records. The new system                   interest in the litigation and the use of             security and data privacy.


                                     VerDate Aug<31>2005   16:09 Nov 07, 2008   Jkt 217001   PO 00000   Frm 00060   Fmt 4703   Sfmt 4703   E:\FR\FM\10NON1.SGM   10NON1
                                          66650                      Federal Register / Vol. 73, No. 218 / Monday, November 10, 2008 / Notices

                                          Effects of the Proposed System of                       CATEGORIES OF INDIVIDUALS COVERED BY THE                 c. Disclosure may be made to a
                                          Records on Individual Rights                            SYSTEM:                                               Federal department or agency or to a
                                            This system is established in                           The records include information                     contractor of a Federal department or
                                          accordance with the principles and                      concerning Medicare beneficiaries and                 agency to permit it to conduct Federal
                                          requirements of the Privacy Act and will                Medicaid recipients.                                  audits, evaluations and inspections, or
                                          collect, use, and disseminate                                                                                 investigations necessary to accomplish a
                                                                                                  CATEGORIES OF RECORDS IN THE SYSTEM:                  statutory purpose of an agency. OIG
                                          information only as prescribed therein.
                                          Data in this system will be subject to the                 The categories of records in the                   must be able to disclose information for
                                          authorized releases in accordance with                  system will include Medicare                          purposes needed to accomplish a
                                          the routine uses identified in this                     beneficiaries’ names, addresses, dates of             statutory purpose of a Federal agency.
                                          system of records notice.                               birth, Medicare HIC numbers, SSNs,                       d. Disclosure may be made to a
                                            OIG will take precautionary measures                  enrollment information and eligibility                congressional office from the record of
                                          to minimize the risks of unauthorized                   information, and claims information                   an individual in response to an inquiry
                                          access to the records and the potential                 relating to the following types of                    from the congressional office made at
                                          harm to individual privacy or other                     services: Inpatient, skilled nursing                  the request of that individual.
                                          personal or property rights of                          facility, outpatient, physician/supplier,                e. In the event of litigation,
                                          beneficiaries and recipients whose data                 home health, hospice, durable medical                 information from the system of records
                                          are maintained in the system. OIG will                  equipment, prescription drug, and                     may be disclosed to the Department of
                                          make disclosures from the proposed                      Medicare Advantage. The records will                  Justice, to a judicial or administrative
                                          system in accordance with the Privacy                   also include names, addresses, dates of               tribunal, opposing counsel, and
                                          Act. OIG does not anticipate an                         birth, and SSNs on Medicaid recipients                witnesses, in the course of proceedings
                                                                                                  from State enrollment and eligibility                 involving HHS, any HHS employee
                                          unfavorable effect on individual privacy
                                                                                                  files and claims information relating to              (where the matter pertains to the
                                          as a result of the disclosure of
                                                                                                  the following types of services:                      employee’s official duties), or the
                                          information relating to individuals. This
                                                                                                  Inpatient, long-term care, professional,              United States, or any agency thereof
                                          proposed change will not otherwise
                                                                                                  dental, pharmacy, and Medicare cross-                 where the litigation is likely to affect
                                          increase access to these records.
                                                                                                  over. The National Provider                           HHS, or HHS is a party or has an
                                            Dated: October 28, 2008.                                                                                    interest in the litigation and the use of
                                                                                                  Identification database and the Unique
                                          Daniel R. Levinson,                                     Provider Identification Number (UPIN)                 the information is relevant and
                                          Inspector General.                                      directory will be stored in this system               necessary to the litigation.
                                                                                                  of records.                                              f. In the event that a system of records
                                          09–90–1000                                                                                                    maintained by OIG to carry out its
                                          SYSTEM NAME:                                            AUTHORITY FOR MAINTENANCE OF THE SYSTEM:              functions indicates a violation or
                                            Consolidated Data Repository–HHS–                       Inspector General Act of 1978 (5                    potential violation of law, whether civil,
                                          OIG.                                                    U.S.C. App.).                                         criminal, or regulatory in nature, and
                                                                                                                                                        whether arising by general statute or
                                          SYSTEM LOCATION(S):                                     PURPOSE(S):                                           particular program statute, or by
                                            Records will be maintained at the                        The purpose of this system of records              regulation, rule or order issued pursuant
                                          following computer site locations:                      is to conduct audits, evaluations and                 thereto, the relevant records in the
                                            • HHS–OIG, 330 Independence                           inspections, and investigations of the                system of records may be referred, as a
                                          Avenue, SW., Washington, DC 20201.                      Medicare and Medicaid programs.                       routine use, to the appropriate agency,
                                            • HHS–OIG, N2–01–02, 7500 Security                                                                          whether Federal, State, local, or foreign,
                                          Boulevard, Baltimore, MD 21244.                         ROUTINE USES OF RECORDS MAINTAINED IN THE             charged with the responsibility of
                                            And the following HHS–OIG                             SYSTEM, INCLUDING CATEGORIES OF USERS AND             investigating or prosecuting such
                                          Regional/Field Office locations:                        THE PURPOSE OF SUCH USES:
                                                                                                                                                        violation or charged with enforcing or
                                            • JFK Federal Building, Boston, MA                       The Privacy Act permits OIG to                     implementing the statute, or rule,
                                          02203.                                                  disclose information outside HHS                      regulation or order issued pursuant
                                            • J.K. Javits Federal Building, 26                    without an individual’s consent if the                thereto.
                                          Federal Plaza, New York, NY 10278.                      information is to be used for a purpose                  g. In the event that the Department
                                            • 150 South Independence Mall West,                   that is compatible with the purposes for              deems it desirable or necessary, in
                                          Public Ledger Building, Philadelphia,                   which the information was collected.                  determining whether particular records
                                          PA 19106.                                               Any such disclosure of data is known as               are required to be disclosed under the
                                            • Atlanta Federal Center, Forsyth                     a routine use. Accordingly, we are                    Freedom of Information Act, disclosure
                                          Street South, Atlanta, GA 30303.                        proposing to establish the following                  may be made to the Department of
                                            • 8659 Baypine Road, Suite 203                        routine use disclosures of records                    Justice for the purpose of obtaining its
                                          Jacksonville, FL 32256.                                 maintained in the system:
                                            • 233 North Michigan Avenue, Room                                                                           advice.
                                                                                                     a. Disclosure may be made to Federal,                 h. A record from this system of
                                          1360, Chicago, IL 60601.
                                            • 3815 West Street, Joseph Hwy,                       State, and local agencies for the purpose             records may be disclosed to a Federal
                                          Lansing, MI 48917.                                      of better identifying the total current               agency, in response to its request, in
                                            • Galtier Plaza, 380 Jackson Street,                  health care usage of the Medicare and                 connection with the hiring or retention
                                          Suite 727, St. Paul, MN 55101.                          Medicaid patient population.                          of an employee, the issuance of a
                                            • 1124 Rickard Road, Suite C,                            b. Disclosure may be made to Federal,              security clearance, the reporting of an
                                          Springfield, IL 62704.                                  State, and local government agencies                  investigation of an employee, the letting
                                            • 1100 Commerce Street, Dallas, TX                    and national health care organizations                of a contract, or the issuance of a
jlentini on PROD1PC65 with NOTICES




                                          75242.                                                  to assist in the development of programs              license, grant, or other benefit by the
                                            • 1201 Walnut Street, Kansas City,                    that will be beneficial to claimants and              requesting agency, to the extent that the
                                          MO 64106.                                               to protect their rights under law and                 record is relevant and necessary to the
                                            • 90 7th Street, San Francisco, CA                    assure that they are receiving all                    requesting agency’s decision on the
                                          94103.                                                  benefits to which they are entitled.                  matter.


                                     VerDate Aug<31>2005   16:09 Nov 07, 2008   Jkt 217001   PO 00000   Frm 00061   Fmt 4703   Sfmt 4703   E:\FR\FM\10NON1.SGM   10NON1
                                                                      Federal Register / Vol. 73, No. 218 / Monday, November 10, 2008 / Notices                                             66651

                                             i. The system of records may be                       Cohen Act of 1996; the Medicare                       supplier, nursing home, hospice, home
                                          disclosed to student volunteers and                      Prescription Drug, Improvement, and                   care, and durable medical equipment),
                                          other individuals performing functions                   Modernization Act of 2003, and the                    Drug Data Processing System, Medicare
                                          for the Department but technically not                   corresponding implementing                            Advantage and Prescription Drug
                                          having the status of agency employees,                   regulations; and OMB Circular A–130,                  system and State Medicaid claims and
                                          if they need access to the records to                    Management of Federal Resources,                      enrollment databases.
                                          perform their assigned agency functions.                 Appendix III, Security of Federal
                                                                                                                                                         SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS
                                             j. A record may be disclosed to                       Automated Information Resources also
                                                                                                                                                         OF THE ACT:
                                          appropriate Federal agencies and                         applies. Federal, HHS, and OIG policies
                                          Department contractors that have a need                  and standards include but are not                       None.
                                          to know the information for the purpose                  limited to: All pertinent National                    [FR Doc. E8–26725 Filed 11–7–08; 8:45 am]
                                          of assisting the Department’s efforts to                 Institute of Standards and Technology                 BILLING CODE 4152–01–P
                                          respond to a suspected or confirmed                      publications; the HHS Information
                                          breach of the security or confidentiality                Systems Program Handbook; and OIG
                                          of information maintained in this                        Information Security Handbooks.                       DEPARTMENT OF HEALTH AND
                                          system of records, and the information                                                                         HUMAN SERVICES
                                                                                                   RETENTION AND DISPOSAL:
                                          disclosed is relevant and necessary for
                                          that assistance.                                           These records may be maintained for                 National Institutes of Health
                                                                                                   an indefinite duration.
                                          POLICIES AND PRACTICES FOR STORING,                                                                            Submission for OMB Review;
                                          RETRIEVING, ACCESSING, RETAINING, AND                    SYSTEM MANAGER AND ADDRESS:
                                                                                                                                                         Comment Request; California Health
                                          DISPOSING OF RECORDS IN THE SYSTEM:                        The agency official responsible for the             Interview Survey Cancer Control
                                          STORAGE:                                                 system policies and practices outlined                Module (CHIS–CCM) 2009 (NCI)
                                            Data are maintained on magnetic tape,                  above is: The Chief Information Officer,
                                                                                                   Office of Management and Policy, Office               SUMMARY: Under the provisions of
                                          disk, or laser optical media.                                                                                  Section 3507(a)(1)(D) of the Paperwork
                                                                                                   of Inspector General, Department of
                                          RETRIEVABILITY:                                          Health and Human Services, Wilbur J.                  Reduction Act of 1995, the National
                                            Records may be retrieved by name,                      Cohen Building, Room 5230, 330                        Cancer Institute (NCI), the National
                                          name and one or more criteria (e.g.,                     Independence Avenue, SW.,                             Institutes of Health (NIH), has submitted
                                          dates of birth, death, and service), SSN,                Washington, DC 20201.                                 to the Office of Management and Budget
                                          Medicare HIC number, Medicaid                                                                                  (OMB) a request for review and
                                                                                                   NOTIFICATION PROCEDURE:                               approval of the information collection
                                          Identification Number.
                                                                                                     Any inquiries regarding these systems               listed below. This proposed information
                                          SAFEGUARDS:                                              of records should be addressed to the                 collection was previously published in
                                             The computers that process these data                 System Manager. An individual who                     the Federal Register on August 22, 2008
                                          are protected by technical, managerial,                  requests notification of or access to a               (Volume 73, No. 164, p. 49685) and
                                          and operational controls that follow                     medical record shall, at the time the                 allowed 60 days for public comment. No
                                          Federal policies and guidelines. The                     request is made, designate in writing a               public comments were received. The
                                          computers are protected by a                             responsible representative who will be                purpose of this notice is to allow an
                                          combination of physical security by                      willing to review the record and inform               additional 30 days for public comment.
                                          being located in Federal offices; access                 the subject individual of its contents at             The National Institutes of Health may
                                          controls such as passwords and                           the representative’s discretion. (These               not conduct or sponsor, and the
                                          identification numbers; and technical                    notification and access procedures are                respondent is not required to respond
                                          protections such as encryption,                          in accordance with Department                         to, an information collection that has
                                          firewalls, and anti-virus software. These                regulations (45 CFR 5b.6).)                           been extended, revised, or implemented
                                          controls allow only authorized users to                                                                        on or after October 1, 1995, unless it
                                                                                                   RECORDS ACCESS PROCEDURES:
                                          access the data.                                                                                               displays a currently valid OMB control
                                             Employees who maintain records in                       Same as notification procedures.                    number.
                                          this system are instructed not to release                Requesters should also reasonably                        Proposed Collection: Title: California
                                          data until the intended recipient agrees                 specify the record contents being                     Health Interview Survey Cancer Control
                                          to implement appropriate management,                     sought. (These access procedures are in               Module (CHIS–CCM) 2009. Type of
                                          operational, and technical safeguards                    accordance with Department regulations                Information Collection Request: New.
                                          sufficient to protect the confidentiality,               (45 CFR 5b.5(a)(2).)                                  Need and Use of Information Collection:
                                          integrity, and availability of the                       CONTESTING RECORD PROCEDURES:                         The NCI has sponsored four Cancer
                                          information and information systems                        Contact the official at the address in              Control Modules in the California
                                          and to prevent unauthorized access.                      the System Manager and Address                        Health Interview Survey (CHIS), and
                                          This system will conform to all                          section above, and reasonably identify                will be sponsoring a fifth to be
                                          applicable Federal laws and regulations                  the record and specify the information                administered in 2009. CHIS is a
                                          and Federal, HHS, and OIG policies and                   to be contested and the corrective action             telephone survey that collects
                                          standards as they relate to information                  sought with supporting justification.                 population-based, standardized health-
                                          security and data privacy. These laws                    (These procedures are in accordance                   related data to assess California’s
                                          and regulations may apply but are not                    with Department Regulations (45 CFR                   progress in meeting Healthy People
                                          limited to: The Privacy Act of 1974; the                 5b.7).)                                               2010 objectives for the nation and the
                                          Federal Information Security                                                                                   state. The CHIS sample is designed to
jlentini on PROD1PC65 with NOTICES




                                          Management Act of 2002; the Computer                     RECORD SOURCE CATEGORIES:                             provide statistically reliable estimates
                                          Fraud and Abuse Act of 1986; the                            Information may be obtained from the               statewide, for California counties, and
                                          Health Insurance Portability and                         Centers for Medicare & Medicaid                       for California’s ethnically and racially
                                          Accountability Act of 1996; the                          Services National Claims History                      diverse population. Initiated by the
                                          eGovernment Act of 2002, the Clinger-                    (inpatient, outpatient, physician                     UCLA Center for Health Policy


                                     VerDate Aug<31>2005    16:09 Nov 07, 2008   Jkt 217001   PO 00000   Frm 00062   Fmt 4703   Sfmt 4703   E:\FR\FM\10NON1.SGM   10NON1
